APPENDIX (A)

(APPENDIX (A))
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA
RAOUL LAFOND,

)
)
)
)
)
)
)
)
)

Plaintiff,
v.
RICHARD S. GLASER, JR., et al.,
Defendants.

l:20-CV-557

ORDER
The Recommendation of the United States Magistrate Judge was filed in
accordance with 28 U.S.C. § 636(b) and the Clerk served the Recommendation on the
plaintiff. Mr. LaFond filed objections to the Recommendation, Doc. 6, but nothing in the
objections undermines the Magistrate Judge’s analysis. Upon consideration, the Court
agrees with the Magistrate Judge’s analysis and adopts the Magistrate Judge’s
Recommendation in full.
It is ORDERED that this action be dismissed pursuant to 28 U.S.C. § 1915A for
being frivolous and failing to state a claim, and for seeking monetary relief against
defendants who are immune from such relief.
This the 14th day of January, 2021.

SlcT JUDGE

UNITED STATES DIS

Case l:20-cv-00557-CCE-JEP Document 8 Filed 01/14/21 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA
RAOUL LAFOND,
Plaintiff,
v.
RICHARD S. GLASER, JR., et al.,
Defendant(s).

)
)
)
)
)
)
)
)
)

L20CV557

RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE
Plaintiff, a federal prisoner convicted in this District of drug, firearm, and money
laundering counts in case 2:96CR212-1, submitted a pro se complaint under Bivens v. Six
Unknown Named Agents of Fed. Bureau of Narcotics. 403 U.S. 388 (1971), together with
the $400.00 filing fee. Plaintiff names four current or former federal prosecutors as
Defendants based on their alleged forging of the indictment or proceeding on that forged
indictment in his criminal case in this Court. He seeks $35,000,000 in damages from each
Defendant.
Because Plaintiff is “a prisoner seeking] redress from a governmental entity or
officer or employee of a governmental entity,” this Court has an obligation to “review” this
Complaint. 28 U.S.C. § 1915A(a). “On review, the court shall... dismiss the complaint,
or any portion of the complaint, if [it] - (1) is frivolous, malicious, or fails to state a claim
upon which relief may be granted; or (2) seeks monetary relief from a defendant who is
immune from such relief.” 28 U.S.C. § 1915A(b).

Case l:20-cv-00557-CCE-JEP Document2 Filed 11/30/20 Page lot5

As to the first basis for dismissal, the United States Supreme Court has explained
that “a complaint, containing as it does both factual allegations and legal conclusions, is
frivolous where it lacks an arguable basis either in law or in fact.” Neitzke v. Williams.
490 U.S. 319, 325 (1989). “The word ‘frivolous’ is inherently elastic and not susceptible
to categorical definition. . . . The term’s capaciousness directs lower courts to conduct a
flexible analysis, in light of the totality of the circumstances, of all factors bearing upon
the frivolity of a claim.” Nagy v. Federal Med. Ctr. Butner. 376 F.3d 252,256-57 (4th Cir.
2004) (some internal quotation marks omitted).
Alternatively, a plaintiff “fails to state a claim upon which relief may be granted,”
28 U.S.C. § 1915A(b)(l), when the complaint does not “contain sufficient factual matter,
accepted as true, to ‘state a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal.
556 U.S. 662,678 (2009) (internal citations omitted) (quoting Bell Atl. Corp. v. Twomblv.
550 U.S. 544, 570 (2007)).

This standard “demands more than an unadorned, the-

defendant-unlawfully-harmed-me accusation.” Id In other words, “the tenet that a court
must accept as true all of the allegations contained in a complaint is inapplicable to legal
conclusions. Threadbare recitals of the elements of a cause of action, supported by mere
conclusory statements, do not suffice.” Id.1
Although the Supreme Court has reiterated that “[a] document filed pro se is to be liberally construed and
a pro se complaint, however inartfully pleaded, must be held to less stringent standards than formal
pleadings drafted by lawyers,” Erickson v. Pardus. 551 U.S. 89, 94 (2007) (internal citations and quotation
marks omitted), the United States Court of Appeals for the Fourth Circuit has “not read Erickson to
undermine Twomblv’s requirement that a pleading contain more than labels and conclusions,” Giarratano
v. Johnson. 521 F.3d 298, 304 n.5 (4th Cir. 2008) (internal quotation marks omitted) (applying Twomblv
standard in dismissing pro se complaint); accord Atherton v. District of Columbia Off, of Mayor. 567 F.3d
672, 681-82 (D.C. Cir. 2009) (“A pro se complaint... ‘must be held to less stringent standards than formal
pleadings drafted by lawyers.’ But even a pro se complainant must plead ‘factual matter’ that permits the

2

Case l:20-cv-00557-CCE-JEP Document 2 Filed 11/30/20 Page 2 of 5

As part of this review, the Court may anticipate affirmative defenses that clearly
appear on the face of the complaint. Nasim v. Warden. Md. House of Corr.,' 64 F.3d 951,
954 (4th Cir. 1995) (en banc); Todd v. Baskerville. 712 F.2d 70, 74 (4th Cir. 1983).
The final ground for dismissal under 28 U.S.C. § 1915A(b)(2) generally applies to
situations in which doctrines established by the United States Constitution or at common
law immunize governments and/or government personnel from liability for monetary
damages. See, e.g.. Pennhurst State Sch. & Hosp. v. Halderman. 465 U.S. 89 (1984)
(discussing sovereign immunity of states and state officials under Eleventh Amendment);
Pierson v. Ray. 386 U.S. 547 (1967) (describing interrelationship between 42 U.S.C.
§ 1983 and common-law immunity doctrines, such as judicial, legislative, and
prosecutorial immunity). Principles of immunity applicable to § 1983 also apply to Bivens
actions. Ehrlich v. Giuliani. 910 F.2d 1220, 1222 n.2 (4th Cir. 1990); Lyles v. Sparks. 79
F.3d 372, 376 n.4 (4th Cir. 1996).
For the reasons that follow, the Complaint should be dismissed pursuant to 28
U.S.C. § 1915A(b) because it is frivolous and fails to state a claim and because it seeks
monetary damages from defendants with immunity from such relief.
As an initial matter, the Court notes that Plaintiff is attempting to undermine his
criminal convictions in this Court. Plaintiff may not do so without first showing that such
convictions were reversed on direct appeal, expunged by Executive Order, or, finally,

court to infer ‘more than the mere possibility of misconduct.’” (quoting Erickson. 551 U.S. at 94, and Iqbal.
556 U.S. at 697, respectively)).

3

Case l:20-cv-00557-CCE-JEP Document 2 Filed 11/30/20 Page 3 of 5

called into question by through the issuance of a writ of habeas corpus. Heck v. Humphrey.
512 U.S. 477 (1994). Plaintiff fails to do so and the Court takes judicial notice that
Plaintiff’s convictions remain intact. Therefore, dismissal is proper for this reason alone.
To any extent that Plaintiffs claims are not barred under Heck, the application of
the appropriate statute of limitations is an affirmative defense that the Court may consider
in this context. See Eriline Co. S.A. v. Johnson. 440 F.3d 648, 655-56 (4th Cir. 2006)
(citing Nasim, 64 F.3d at 955). The statute of limitations in this case is three years. See
Reinbold v. Evers. 187 F.3d 348, 359 n.10 (4th Cir. 1999) (stating that because there is no
federal statute imposing a statute of limitations in a Bivens action, the Court must look to
state law); Wilson v. Garcia. 471 U.S. 261, 276-80 (1985) (holding that, in section 1983
actions, state statute of limitations for personal injury applies); Brooks v. City of Winston
Salem. 85 F.3d 178, 181 (4th Cir. 1996) (applying North Carolina’s three-year statute of
limitations for personal injuries to section 1983 actions); N.C. Gen. Stat § 1-52
(establishing three-year statute of limitations for personal injury). A plaintiffs cause of
action accrues, and the statute of limitations runs, from the date on which he “possesses
sufficient facts about the harm done to him that reasonable inquiry will reveal his cause of
action.” Nasim. 64 F.3d at 955. The alleges actions about which Plaintiff complains
occurred prior to his conviction in 1997. Further, he has been raising some form of the
current allegations in this Court since at least November of 2016. (See 2:96CR212-1, Doc.
#467.) His current filing is well out of time.
Finally, Plaintiffs claims are also barred by prosecutorial immunity because
prosecutors have absolute immunity for their participation in the judicial process. Buckley
4

Case l:20-cv-00557-CCE-JEP Document 2 Filed 11/30/20 Page 4 of 5

v. Fitzsimmons. 509 U.S. 259,269-70 (1993). All of the named Defendants are sued based
on their actions as prosecutors in Plaintiffs criminal case in this Court. His claims fail for
this additional reason and should be dismissed.
IT IS RECOMMENDED that this action be dismissed pursuant to 28 U.S.C.
§ 1915A for being frivolous and failing to state a claim, as well as for seeking monetary
relief against defendants who are immune from such relief.
This, the 30th day of November, 2020.

/s/ Joi Elizabeth Peake
United States Magistrate Judge

5

Case l:20-cv-00557-CCE-JEP Document 2 Filed 11/30/20 Page 5 of 5

APPENDIX (B)

(APPENDIX (B))

FILED: June 29, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 21-6177
(1:20-cv-00557-CCE-JEP)
RAOUL LAFOND
Plaintiff - Appellant
v.
RICHARD S. GLASER, JR.; WALTER C. HOLTON, JR.; CLIFTON THOMAS
BARRETT; LYNNE P. KLAUER
Defendants - Appellees

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/PATRICIA S. CONNOR. CLERK

(APPENDIX (B) 'l
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 21-6177
RAOUL LAFOND,
Plaintiff - Appellant,
v.
RICHARD S. GLASER, JR.; WALTER C. HOLTON, JR.; CLIFTON THOMAS
BARRETT; LYNNE P. KLAUER,
Defendants - Appellees. .

Appeal from the United States District Court for the Middle District of North Carolina, at
Greensboro. Catherine C. Eagles, District Judge. (l:20-cv-00557-CCE-JEP)
Submitted: June 24, 2021

Decided: June 29, 2021

Before KING and THACKER, Circuit Judges, and TRAXLER, Senior Circuit Judge.
Affirmed by unpublished per curiam opinion.
Raoul Lafond, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

(APPENDIX (B))

PER CURIAM:
Raoul Lafond appeals the district court’s order accepting the recommendation of the
magistrate judge and dismissing under 28 U.S.C. § 1915A(b) Lafond’s complaint filed
pursuant to Bivens v. Six Unknown Named Agents of Fed. Bureau ofNarcotics, 403 U.S.
388 (1971). We have reviewed the record and find no reversible error. Accordingly, we
affirm for the reasons stated by the district court. Lafond v. Glaser, No. l:20-cv-00557CCE-JEP (M.D.N.C. Jan. 14, 2021). We dispense with oral argument because the facts
and legal contentions are adequately presented in the materials before this court and
argument would not aid the decisional process.
AFFIRMED

2

